No. 19-241

In The Supreme Court of the United States

UMB BANK, N.A., et al,

Applicants,
v.
LANDMARK TOWERS ASSOCIATION, INC.,
Respondent.

Certificate of Service

 

I, Nelson Boyle, a member of the Bar of this Court, certify that on October
22, 2019, I caused the three physical copies of the Brief in Opposition in the above-
captioned case to be served upon the following counsel by commercial carrier
next-day delivery and caused an electronic version of the document to be

transmitted to the following counsel by electronic mail:

Neil L. Arney Kimberly A. Bruetsch
Mia Della Cava Robinson Waters & O’Dorisio, P.C.
Kutak Rock 1099 18th Street, Suite 2600
1801 California Street, Suite 3000 Denver, Colorado 80202
Denver, Colorado 80202-2626 Counsel for the Marin Metropolitan
Counsel for Petitioners District

) submitted,

Nelson Boyle

Brian K. Matise

Counsel of Record

Burg Simpson

Eldredge Hersh & Jardine, P.C.

40 Inverness Drive East

Denver, Colorado 80112

(303) 792-5595

Counsel for Landmark Towers Assn.

October 22, 2019
